Office of Material Loss Reviews
Report No. IDR-11-004


In-Depth Review of the Failure of The Park Avenue
Bank, New York, New York




                                  December 2010
                                       Executive Summary

                                       In-Depth Review of the Failure of The Park Avenue
                                       Bank, New York, New York
                                                                                         Report No. IDR-11-004
                                                                                                December 2010

Why We Did The Audit

On March 12, 2010, the New York State Banking Department (NYSBD) closed The Park Avenue Bank (Park
Avenue), New York, New York, and named the FDIC as receiver. On April 1, 2010, the FDIC notified the
Office of Inspector General (OIG) that Park Avenue’s total assets at closing were $509 million and the
estimated loss to the Deposit Insurance Fund (DIF) was $48.9 million As of September 3, 2010, the estimated
loss to the DIF had increased to $57.1 million.

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and Consumer Protection
Act (the Financial Reform Act). The Financial Reform Act amends section 38(k) of the Federal Deposit
Insurance Act (FDI Act) by increasing the material loss review (MLR) threshold from $25 million to
$200 million for losses that occur for the period January 1, 2010 through December 31, 2011. Although the
estimated loss for Park Avenue does not meet the amended threshold requiring an MLR, the OIG determined
that the circumstances pertaining to the failure of Park Avenue warranted an in-depth review as authorized by
the Financial Reform Act.

The objectives were to (1) determine the causes of Park Avenue’s failure and the causes of the resulting loss to
the DIF and (2) evaluate the FDIC’s supervision of the institution, including the FDIC’s implementation of the
Prompt Corrective Action (PCA) provisions of section 38 of the FDI Act.


Background

Park Avenue was established in November 1987 as a federally-chartered bank under the supervision of the
Office of the Comptroller of the Currency. Until its conversion to a state charter on March 30, 2004, Park
Avenue operated as a wholesale institution focusing on international trade finance and working capital loans to
foreign companies and financial institutions. Following the charter conversion, a new investor purchased a
majority of the bank’s common stock, new directors were elected to the Board of Directors (Board), and the
bank’s executive officers were replaced. Park Avenue also reduced its foreign country exposure and changed
its business strategy to that of a community-based retail bank. Between 2004 and 2007, Park Avenue’s
lending activities focused on commercial real estate, including acquisition, development, and construction
projects. During 2007, the bank began emphasizing commercial and industrial loans to businesses in a wide
range of industries. Park Avenue’s main office was located in Manhattan. The bank also operated three
branches in Brooklyn and one branch in Manhattan.


Audit Results

Causes of Failure and Loss
Park Avenue failed primarily because of lax oversight by its Board and management and a lack of sound
corporate governance. Following its charter conversion in 2004, Park Avenue embarked on a rapid loan
growth strategy without adequate loan underwriting, credit administration, or related monitoring practices.
High overhead expenses and a high cost of funds added to Park Avenue’s financial problems, as the bank did
not achieve an annual pre-tax profit on its operations after its charter conversion. Park Avenue’s loan growth,
together with recurring pre-tax losses from operations, caused the bank to fall below Well Capitalized for PCA
purposes by March 2008. Notably, Park Avenue continued to grow its average total assets during 2009, even
though the bank had fallen below Adequately Capitalized, in apparent violation of the growth restrictions
   Executive Summary
                                       In-Depth Review of Failure of The Park Avenue
                                       Bank, New York, New York
                                                                                           Report No. IDR-11-004
                                                                                                  December 2010

imposed by PCA. Some of the loans made during this period were poorly underwritten and experienced
problems soon after they were originated. In general, Park Avenue’s Board and management failed to
promptly or fully respond to negative trends and developments in the institution’s financial and operational
condition or to effectively address regulatory concerns.

Park Avenue’s weakened capital position strained its liquidity and limited the bank’s ability to absorb losses
when the credit quality of its assets deteriorated. In an attempt to improve the bank’s capital position,
management purported to raise $6.6 million in new capital during the fourth quarter of 2008. However, it was
later determined that $6.5 million of this amount consisted of borrowings from the bank itself. Because the
FDIC Rules and Regulations do not permit such funds to be treated as regulatory capital, the bank’s true
capital position was worse than reported by management. Further, losses associated with the bank’s
investment securities, together with an $8.7 million write-down of a deferred tax asset, effectively offset the
purported capital infusion and resulted in the bank reporting an Undercapitalized position at year-end 2008.
During 2009, the quality of Park Avenue’s loan portfolio deteriorated significantly, resulting in losses totaling
almost $20 million. By January 2010, the bank had become Critically Undercapitalized, and efforts to raise
new capital had not been successful. The NYSBD closed Park Avenue on March 12, 2010 because it could
not raise sufficient capital to continue safe and sound operations.

On October 8, 2010, the United States Attorney for the Southern District of New York issued a press release
stating that the President and CEO of Park Avenue had pled guilty to criminal charges of fraud against the U.S.
Treasury’s Troubled Asset Relief Program, securities fraud, self-dealing, bank bribery, and embezzlement of
bank funds. With respect to the fraud charges, the press release stated that the President and CEO admitted to
misleading the FDIC and NYSBD by representing that $6.5 million of the $6.6 million in purported capital
infused into the bank during the fourth quarter of 2008 consisted of personal funds, when in fact, the source of
the funds consisted of borrowings from the bank. The business transactions pertaining to these criminal
charges, including the purported capital infusion, contributed to the financial problems that developed at the
bank. At the time of our review, the FDIC was continuing to review the causes of Park Avenue’s failure,
including the Board and management’s implementation of strategies and risk management practices, and the
extent to which the causes might result in additional regulatory action.

The FDIC’s Supervision of Park Avenue
The FDIC, in coordination with the NYSBD, provided ongoing supervisory oversight of Park Avenue through
regular on-site risk management examinations, visitations, and offsite monitoring activities. Through its
supervisory efforts, the FDIC identified key risks in Park Avenue’s operations and brought these risks to the
attention of the institution’s Board and management. Such risks included lax Board and management
oversight, unsatisfactory earnings, weak risk management practices (including with respect to the lending
function), and repeat apparent violations of laws and regulations and contraventions of statements of policy.
Further, Park Avenue never received a satisfactory composite or management component rating following the
bank’s charter conversion in 2004. Such supervisory ratings were forward-looking and properly reflected the
bank’s risky management practices.

In October 2005, Park Avenue adopted a Bank Board Resolution (BBR) that focused on addressing BSA
program deficiencies identified during the April 2005 examination. Included within the BBR were provisions
to strengthen the bank’s earnings performance and strategic planning. However, management’s efforts to
improve its earnings and strategic planning were not successful. Examiners identified new, and in some cases,
repeat internal control and risk management weaknesses during the May 2006 and June 2007 examinations.
The FDIC seriously considered implementing Memorandums of Understanding (MOU) with Park Avenue to
address the weaknesses identified during these examinations. However, due to various reasons described in
   Executive Summary
                                        In-Depth Review of Failure of The Park Avenue
                                        Bank, New York, New York
                                                                                            Report No. IDR-11-004
                                                                                                   December 2010

the report, the MOUs were not implemented. Instead, examiners made recommendations in the reports of
examination and senior New York Regional Office officials and examiners made recommendations during
meetings and telephone discussions with bank management to address the weaknesses.

In retrospect, obtaining a commitment from Park Avenue for more affirmative action to address the
weaknesses identified during the May 2006 and June 2007 examinations, such as through an MOU, may have
been beneficial. Such an approach could have furthered the FDIC’s ongoing efforts to set an appropriate
supervisory tenor of expectations. However, given management’s lack of compliance with supervisory
enforcement actions implemented in subsequent years, it is uncertain whether the MOUs would have
influenced Park Avenue’s Board and management to take more effective and timely actions to address
examiner concerns.

Based on the weaknesses identified during the July 2008 examination, the FDIC and NYSBD issued parallel
Cease and Desist Orders (C&D) against Park Avenue, which became effective in February 2009. In
April 2009, the FDIC and NYSBD conducted a visitation to determine the sufficiency of management’s
responses to the C&Ds and advised management of its lack of compliance. In July 2009, the FDIC and
NYSBD notified the bank’s Board that its actions to comply with the C&Ds were deficient and reminded the
Board of the potential consequences of material noncompliance with the orders, such as civil money penalties.
Park Avenue’s Board and management were ultimately unsuccessful in returning the bank to a safe and sound
condition and, as a result, the NYSBD closed Park Avenue on March 12, 2010. At the time of our review, the
FDIC was reviewing the circumstances pertaining to the bank’s lack of compliance with the C&Ds and
apparent violation of PCA’s growth restrictions to determine whether additional regulatory actions would be
appropriate.

With respect to PCA, the FDIC implemented supervisory actions that were consistent with relevant provisions
of section 38. Among other things, the FDIC notified Park Avenue of changes in its PCA capital category;
requested and evaluated capital restoration plans; monitored the institution’s financial condition and activities;
and expressed concern to the bank’s Board and management regarding issues of apparent noncompliance.
While the FDIC monitored and advised management of its concerns regarding Park Avenue’s apparent
violation of the growth restrictions defined in PCA, more aggressive action may have been warranted. Doing
so would have been consistent with the FDIC’s guidance in this area and would have provided another avenue
for instilling urgency in the bank’s Board and management to implement corrective measures.


Management Response
After we issued our draft report, management provided additional information for our consideration, and we
revised our report to reflect this information, as appropriate. On December 22, 2010, the DSC Director
provided a written response to the draft report. That response is provided in its entirety as Appendix 4 of this
report. In the response, the DSC Director reiterated the causes of Park Avenue’s failure described in our
report. With regard to our assessment of the FDIC’s supervision of the bank, the Director summarized the
supervisory activities described in our report and noted that the actions taken by the Board and management
were generally not timely or adequate to correct the risk management weaknesses that existed at the bank. The
response added that DSC has issued guidance to enhance its supervision of institutions with CRE
concentrations.
                                 Contents
                                                                        Page
Background                                                                2

Causes of Failure and Loss                                                3
  Board Oversight and Governance                                          4
  Recurring Pre-tax Losses from Operations                                6
  Loan Growth and Capital Management                                      7
  Oversight of the Lending Function                                      11

The FDIC’s Supervision of Park Avenue                                    13
  Supervisory History                                                    14
  Supervisory Response to Key Risks During the 2006 and 2007
     Examinations                                                        16
   Prompt Corrective Action                                              18
   Capital Purchase Program                                              22

Corporation Comments                                                     23

Appendices
  1. Objectives, Scope, and Methodology                                  24
  2. Glossary of Terms                                                   27
  3. Acronyms                                                            31
  4. Corporation Comments                                                32

Tables
   1. Selected Financial Information for Park Avenue                      3
   2. On-site Examinations and Visitations of Park Avenue                14
   3. Park Avenue’s Capital Levels                                       19
   4. Asset Growth and Capital, September 2008 through                   21
      September 2009

Figures
   1. Composition and Growth of Park Avenue’s Loan Portfolio              8
   2. Trend in Tier 1 Leverage Capital Ratios Relative to Loan Growth     9
Federal Deposit Insurance Corporation                                         Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                            Office of Inspector General


DATE:                                     December 23, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                   In-Depth Review of the Failure of The Park Avenue Bank,
                                           New York, New York
                                          (Report No. IDR-11-004)


The New York State Banking Department (NYSBD) closed The Park Avenue Bank (Park
Avenue) on March 12, 2010, and named the FDIC as receiver. On April 1, 2010, the
FDIC notified the Office of Inspector General (OIG) that Park Avenue’s total assets at
closing were $509 million and that the estimated loss to the Deposit Insurance Fund
(DIF) was $48.9 million. As of September 3, 2010, the estimated loss to the DIF had
increased to $57.1 million (or 11 percent of Park Avenue’s total assets at closing).

On July 21, 2010, the President signed into law the Dodd-Frank Wall Street Reform and
Consumer Protection Act (the Financial Reform Act). The Financial Reform Act amends
section 38(k) of the Federal Deposit Insurance Act (FDI Act) by increasing the threshold
for a material loss review from $25 million to $200 million for losses that occur for the
period January 1, 2010 through December 31, 2011. The Financial Reform Act also
establishes a new requirement to review all failures to (a) identify all losses that the
Inspector General estimates have been incurred by the DIF, (b) identify the grounds
identified by the state or federal banking agency for appointing the FDIC as receiver, and
(c) determine whether any unusual circumstances exist that may warrant an in-depth
review (IDR) of the loss. Although the estimated loss for Park Avenue does not meet the
amended threshold requiring an MLR, the OIG determined that the circumstances
pertaining to the failure of Park Avenue warranted an IDR as authorized by the Financial
Reform Act.

Consistent with the Financial Reform Act and FDI Act provisions described above, the
objectives of this review were to (1) determine the causes of Park Avenue’s failure and
the causes of the resulting loss to the DIF and (2) evaluate the FDIC’s supervision of Park
Avenue, including the FDIC’s implementation of the Prompt Corrective Act (PCA)
provisions of section 38 of the FDI Act. This report presents our analysis of Park
Avenue’s failure and the FDIC’s efforts to promote safe and sound banking operations at
the institution. The report does not contain formal recommendations. Instead, as major
causes, trends, and common characteristics of institution failures are identified in our
material loss and in-depth reviews, we will communicate those to FDIC management for
its consideration. As resources allow, we may also conduct more comprehensive reviews
of specific aspects of the FDIC’s supervision program and make recommendations as
warranted.1

Appendix 1 contains detailed information pertaining to our objectives, scope, and
methodology. We also include several other appendices to this report. Appendix 2
contains a glossary of terms, including material loss, the FDIC’s supervision program,
and the Uniform Financial Institutions Rating System (otherwise known as CAMELS
ratings). Appendix 3 contains a list of acronyms. Appendix 4 presents the Corporation’s
comments on our report.


Background
Park Avenue was established in November 1987 as a federally-chartered bank under the
supervision of the Office of the Comptroller of the Currency (OCC). Until its conversion
to a state charter on March 30, 2004, Park Avenue operated as a wholesale institution
focusing on international trade finance and working capital loans to foreign companies
and financial institutions located in the Republic of Turkey (Turkey), Latin America, and
Europe. Park Avenue had a troubled regulatory history while under the OCC’s
supervision. In January 2003, the institution entered into a Consent Order to Cease and
Desist (C&D) with the OCC requiring, among other things, that the bank develop and
implement an acceptable capital program and strategic plan, or if this was not
accomplished, to sell, merge, or liquidate the bank.

In January 2004, Park Avenue applied to the NYSBD for a state charter. To obtain
favorable consideration of its application, Park Avenue and certain individuals2 entered
into a formal agreement with the NYSBD. Key provisions of the agreement included
requirements for Park Avenue to reduce its foreign country exposure, maintain minimum
capital levels, and replace its management team. In March 2004, the NYSBD approved
Park Avenue’s application for a state charter. The FDIC and NYSBD subsequently
approved a change in the bank’s control whereby a new investor purchased a majority of
the institution’s common stock and infused $10 million in capital. As part of the change
in control, new directors were elected to the Board of Directors (Board) and the bank’s
executive officers were replaced. Park Avenue also took steps to reduce its foreign
country exposure and changed its overall business strategy to that of a community-based
retail bank.

Between 2004 and 2007, Park Avenue’s lending activities focused on commercial real
estate (CRE), including acquisition, development, and construction (ADC) projects.
During 2007, the bank began emphasizing commercial and industrial (C&I) loans to
businesses in a wide range of industries. Park Avenue also maintained an investment
securities portfolio consisting primarily of U.S. Government and agency securities and

1
  A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of the report.
2
  These individuals included the Board directors, a proposed Board director, and a proposed majority
shareholder.
                                                      2
various debt and equity instruments, such as residential mortgage-backed securities,
collateralized debt obligations, and preferred shares in the Federal National Mortgage
Association (Fannie Mae).

As of August 31, 2009, approximately 95 percent of Park Avenue’s common stock was
held by the Park Avenue Bancorp, Inc. (Bancorp), a privately-held, one-bank holding
company located in New York City. The remainder of the bank’s common stock was
held by the Savings Deposit Insurance Fund of Turkey. Park Avenue’s President and
Chief Executive Officer (CEO) owned about 52 percent of Bancorp’s common stock.3
An additional 34 percent of the holding company’s common stock was owned by another
individual, with the remainder of the stock owned by various investors. Park Avenue’s
main office was located in Manhattan. The bank also operated three branches in
Brooklyn and one branch in Manhattan. Table 1 summarizes selected financial
information for Park Avenue for the 5 years ended December 31, 2009.

Table 1: Selected Financial Information for Park Avenue
     Financial Measure
          ($000)             Dec-05         Dec-06        Dec-07          Dec-08          Dec-09

         Total Assets        292,162        389,079        394,010        494,305         520,146

        Total Deposits       216,983        288,409       272,870         421,584         494,505

    Gross Loans and Leases   177,775        218,367        250,148        360,948         379,488
     Pretax Net Operating
        Income (Loss)          (168)         (611)         (3,483)        (5,689)         (19,887)

      Net Income (Loss)        1,456          976          (9 ,271)        (6,547)        (19,887)
Source: Uniform Bank Performance Reports (UBPR) for Park Avenue.



Causes of Failure and Loss
Park Avenue failed primarily because of lax oversight by its Board and management and
a lack of sound corporate governance. Following its charter conversion in 2004, Park
Avenue embarked on a rapid loan growth strategy without adequate loan underwriting,
credit administration, or related monitoring practices. High overhead expenses and a
high cost of funds added to Park Avenue’s financial problems, as the bank did not
achieve an annual pre-tax profit on its operations following the charter conversion. Park
Avenue’s loan growth, together with recurring pre-tax losses from operations, caused the
bank to fall below Well Capitalized for PCA purposes by March 2008. Notably, Park
Avenue continued to grow its average total assets during 2009, even though the bank had
fallen below Adequately Capitalized, in apparent violation of the growth restrictions
imposed by PCA. Some of the loans made during this period were poorly underwritten
and experienced problems soon after they were originated. In general, Park Avenue’s
Board and management failed to promptly or effectively respond to negative trends and
3
 The majority of the President and CEO’s stock was acquired during the fourth quarter of 2008 and was
controlled by a third-party trustee while the NYSBD considered a change in control application. In
addition, the President and CEO owned one-third of Park Avenue Associates, Inc., which held about
4 percent of Bancorp’s outstanding stock.
                                                    3
developments in the institution’s financial and operational condition or to fully address
regulatory concerns.

Park Avenue’s weakened capital position strained its liquidity and limited the bank’s
ability to absorb losses when the credit quality of its assets deteriorated. In an attempt to
improve the bank’s capital position, management purported to raise $6.6 million in new
capital during the fourth quarter of 2008. However, it was later determined that
$6.5 million of this amount consisted of borrowings from the bank itself. Because the
FDIC Rules and Regulations do not permit such funds to be accorded treatment as
regulatory capital, the bank’s true capital position was worse than reported by
management. Further, losses associated with the bank’s investment securities, together
with an $8.7 million write-down of a deferred tax asset (DTA),4 effectively offset the
purported capital infusion and resulted in the bank reporting an Undercapitalized position
at year-end 2008. During 2009, the quality of Park Avenue’s loan portfolio deteriorated
significantly, resulting in losses totaling almost $20 million. By January 2010, the bank
had become Critically Undercapitalized, and longstanding efforts to raise new capital had
not been successful. The NYSBD closed Park Avenue on March 12, 2010 because it
could not raise sufficient capital to continue safe and sound operations.

On October 8, 2010, the United States Attorney for the Southern District of New York
issued a press release stating that the President and CEO of Park Avenue had pled guilty
to criminal charges of fraud against the U.S. Treasury’s Troubled Asset Relief Program
(TARP), securities fraud, self-dealing, bank bribery, and embezzlement of bank funds.
With respect to the fraud charges, the press release stated that the President and CEO
admitted to misleading the FDIC and NYSBD by representing that $6.5 million of the
$6.6 million in purported capital infused into the bank during the fourth quarter of 2008
consisted of personal funds, when in fact, the source of the funds consisted of borrowings
from the bank. The business transactions pertaining to these criminal charges, including
the purported capital infusion, contributed to the financial problems that developed at the
bank. At the time of our review, the FDIC was continuing to review the causes of Park
Avenue’s failure, including the Board and management’s implementation of strategies
and risk management practices, and the extent to which the causes might result in
additional regulatory action.

Board Oversight and Governance

The DSC Risk Management Manual of Examination Policies (Examination Manual)
states that the quality of an institution’s management, including its Board and executive
officers, is perhaps the single most important element in the successful operation of an
institution. According to the Examination Manual, the Board has overall responsibility
and authority for formulating sound policies and objectives for the institution and for
effectively supervising the institution’s affairs. Executive officers, such as the President
and CEO, Chief Lending Officer (CLO), and Chief Financial Officer (CFO), have

4
  A DTA is the potential tax benefit associated with operating losses. In the case of Park Avenue, it
represented the expected value of future income tax savings that would be available to offset expected
future taxable income with the carry-forward of net operating losses. See the Glossary of Terms for more
information.
                                                     4
primary responsibility for managing the day-to-day operations and affairs of the bank.
Further, ensuring appropriate corrective actions to regulatory concerns is a key
responsibility of the Board.

The knowledge, experience, and involvement of the Board and executive officers are
especially critical for new institutions. This point was underscored in a 2004 study
conducted by the FDIC, which found that problems occurring during the first 6 years of
an institution’s operation were predominantly attributable to weak oversight by the Board
and management inexperience and turnover. While Park Avenue was not a new
institution, it had many characteristics of a new banking organization in 2004. For
example, the bank had a new charter, a new Board, a new team of executive officers, and
a substantially different business model. As discussed below and in subsequent sections
of this report, weak Board and management oversight of Park Avenue was the primary
cause for the decline in the bank’s financial and operational condition.

A Management and Staff Assessment Report prepared by an outside consultant on behalf
of Park Avenue in June 2009 illustrated significant weaknesses in the Board’s oversight,
management’s performance, and the bank’s governance. The report, which was required
by parallel C&Ds issued by the FDIC and NYSBD in February 2009, concluded that:

   •   The Board did not effectively oversee the bank’s performance or hold senior
       management accountable for poor performance. Instead, the Board ceded too
       much responsibility to the President and CEO, and the CFO and did not pressure
       the President and CEO to make tough decisions sooner, such as removing the
       lending staff that originated many of the bank’s non-performing loans earlier than
       was done.

   •   A restructuring of the Board was needed to ensure (a) vigorous and candid
       dialogue with the President and CEO and other executive officers regarding the
       bank’s strategies and (b) necessary talent was in place at the senior management
       level to execute key initiatives. Among other things, the report recommended that
       the Board’s Chairman be replaced to break the culture of not holding management
       accountable for unsatisfactory financial performance and that new directors
       (including a financial expert) be added.

   •   The President and CEO lacked the necessary management skills to run the bank
       and had outside or conflicting business interests. The report recommended that
       the bank seek a new President and CEO to execute the strategic plan and return
       the bank to a safe and sound condition.

   •   Loan underwriting and credit administration procedures were either absent or not
       followed. In addition, loan documentation was poor and turnover of key staff
       plagued the lending function. The report recommended that the bank seek a new
       CLO.

In responding to the Management and Staff Assessment Report, Park Avenue’s Board
Chairman acknowledged the need for a new President and CEO, but indicated that a
                                            5
change in this position would not likely occur until the bank’s recapitalization efforts
were complete. However, the Chairman generally disagreed with the remaining
criticisms referenced above. In the years preceding the issuance of the Management and
Staff Assessment Report, examiners expressed concern about Park Avenue’s weak
internal controls and risky management practices and made numerous recommendations
for improvement. Among other things, examiners expressed concern about the lack of
Board oversight, unsatisfactory earnings, weak internal controls (such as a lack of
segregation of duties and formal policies in the accounting department), and risky lending
practices. However, the limited actions taken by Park Avenue’s Board and management
to address these concerns and recommendations were generally not timely or adequate.

Recurring Pre-tax Losses from Operations

Contributing to Park Avenue’s financial deterioration was the bank’s inability to achieve
a pre-tax profit on operations following its charter conversion in 2004. The Board and
management undertook a number of initiatives between 2004 and 2009 to achieve
profitability on a pre-tax basis. Such initiatives included the adoption of various earnings
plans, strategic plans, and budget and profit plans that defined financial benchmarks and
goals. However, management was not successful in achieving many of the benchmarks
and goals contained in these plans, or in achieving profitability on a pre-tax basis.

High overhead expenses associated with the institution’s retail branch expansion, Park
Avenue headquarters location, and payroll contributed significantly to the bank’s
recurring pre-tax operational losses. Park Avenue’s high overhead expenses were
reflected in the bank’s Efficiency Ratio,5 which ranged between 88 percent and
117 percent during the period 2005 through 2009. These ratios were substantially higher
than the goal established in Park Avenue’s Board-approved 2007-2009 Strategic Plan of
less than 60 percent and ranked the bank in the 89th to 99th percentile of its peer group.
Also contributing to the bank’s recurring pre-tax losses was a high cost of funds
associated with above-market-rate time deposits. Park Avenue’s high cost of funds was
reflected in its ratio of total interest expenses to average earning assets,6 which ranked the
bank in the 95th to 97th percentile of its peer group between 2005 and 2009.

Although Park Avenue reported pre-tax losses on its operations between 2004 and 2006,
it was able to report positive net income in its regulatory filings during this same period
due to the potential tax benefit associated with a DTA. However, Park Avenue could
only realize the benefits of the DTA if it could generate sufficient future taxable income.
By 2008, Park Avenue’s external financial statement auditors were becoming
increasingly concerned about the value of the bank’s DTA. After years of experiencing
pre-tax operating losses, it appeared uncertain when the bank would reach profitability on
a pre-tax basis and begin to realize the tax savings associated with the DTA.

As losses continued during 2008, Park Avenue’s management was unable to persuade its
auditors that the DTA should continue to be recognized as an asset on the bank’s balance

5
 The Efficiency Ratio represents the ratio of overhead expenses to total revenues.
6
 This ratio measures the average yield that must be earned on every dollar of average assets to cover a
bank’s interest expenses.
                                                     6
sheet. As a result, management established a valuation allowance totaling $8.7 million
against the entire carrying value of the DTA in November 2008. This allowance had a
negative effect on Park Avenue’s regulatory capital7 and was a significant factor in Park
Avenue reporting a net loss of $9.3 million for 2007. The continued effect of high
overhead expenses and a high cost of funds, together with losses on the bank’s
investment securities, resulted in an additional loss of $6.5 million during 2008.

In 2009, Park Avenue experienced a significant deterioration in the quality of its loan
portfolio and investment securities. During the September 2009 examination, examiners
determined that approximately $104 million (or 19 percent of Park Avenue’s total assets)
needed to be classified. Almost 90 percent of these classifications consisted of loans,
with the remainder consisting of investment securities and other real estate. After making
a large loan loss provision in December 2009, Park Avenue reported a net loss of almost
$20 million for 2009, rendering the institution Critically Undercapitalized.

Loan Growth and Capital Management

Beginning in 2004, Park Avenue embarked on a rapid loan growth strategy centered in
CRE and ADC lending. Much of this growth was fueled by brokered deposits. As early
as 2006, examiners began to express concern about the bank’s concentration in CRE
loans. During 2008, Park Avenue’s management significantly reduced the bank’s
exposure to ADC loans and placed increased emphasis on C&I lending. This decision
had the effect of diversifying the institution’s loan portfolio, and may have been a
contributing factor in the bank’s low loss (based on total assets) to the DIF.8 Figure 1
illustrates the general composition and growth of Park Avenue’s loan portfolio in the
years preceding the institution’s failure.




7
  Institutions may include DTAs in their Tier 1 Capital consistent with the limitations defined in the FDIC
Rules and Regulations. See the glossary for more information.
8
  Park Avenue’s estimated loss to the DIF of 11 percent of the bank’s total assets is less than half of the
average estimated loss rate of 24 percent for all insured institutions that failed between January 1, 2008 and
June 1, 2010. (The average loss rate does not include the failure of Washington Mutual.)
                                                       7
Figure 1: Composition and Growth of Park Avenue’s Loan Portfolio


   Gross Loans and Leases (Millions)   $400          Other Loans
                                                     C&I Loans                               $52
                                       $350                                          $67
                                                     CRE Loans

                                       $300          ADC Loans
                                                                                             $129
                                       $250                                   $27    $102

                                                                 $35          $48
                                       $200
                                                                 $27
                                               $55      *
                                       $150                                   $92
                                                                 $80                 $156    $159
                                       $100    $91

                                        $50                      $77          $82
                                               $32                                   $35     $39
                                         $0
                                              2005          2006         2007       2008    2009
                                                                       Year Ended

Source: Reports of Condition and Income (Call Reports) for Park Avenue. Due to rounding, some
         figures may be slightly higher or lower than actual amounts.
* For presentation purposes, approximately $3 million in C&I loans is included in Other Loans for 2005.

The growth in Park Avenue’s loan portfolio placed downward pressure on the bank’s
capital ratios. To mitigate this downward pressure, the bank raised $5.1 million in new
capital during 2006, and an additional $834,000 in new capital during the first quarter of
2007. Notwithstanding these capital infusions, the institution’s Tier 1 Leverage Capital
Ratio fell below the 7.25 percent minimum threshold defined in the bank’s 2007-2009
Strategic Plan as of December 31, 2007. Continued loan growth and pre-tax losses
during the first quarter of 2008 caused Park Avenue to fall below Well Capitalized for
PCA purposes as of March 31, 2008. The drop in Park Avenue’s capital limited the
bank’s ability to absorb losses when the credit quality of its assets deteriorated. It also
significantly increased the institution’s liquidity risk profile as it became restricted from
accepting, renewing, or rolling over brokered deposits without a waiver from the FDIC.
As of March 31, 2008, $151.2 million of Park Avenue’s $310.9 million in total deposits
(or 49 percent) were brokered deposits.

Park Avenue’s Board and management failed to recognize or promptly address the risks
associated with the bank’s declining trend in capital ratios. Minutes of Board meetings
held between December 2007 and March 2008 contained no discussion about the Tier 1
Leverage Capital Ratio falling below the 7.25 percent threshold established in the bank’s
strategic plan. The Board minutes also did not reference the bank’s declining capital
ratios or the consequences of falling below Well Capitalized for PCA purposes. The first
reference to issues pertaining to the bank’s PCA capital category appeared in the June
2008 Board minutes. Shortly after the bank fell below Well Capitalized, management
renewed significant amounts of brokered deposits without a waiver from the FDIC, in
apparent violation of section 29, Brokered Deposits, of the FDI Act and Part 337, Unsafe
                                                                          8
and Unsound Banking Practices, of the FDIC Rules and Regulations. Figure 2 illustrates
the trend in Park Avenue’s Tier 1 Leverage Capital Ratios relative to growth in the loan
portfolio between 2004 and 2009.

Figure 2: Trend in Tier 1 Leverage Capital Ratios Relative to Loan Growth

                             $400                                                                             25%

                             $350
                                                                                                              20%
                             $300




                                                                                                                    Tier 1 Leverage Capital
    Total Loans (Millions)




                             $250
                                                                                                              15%

                             $200

                                                                                                              10%
                             $150

                             $100
                                                                                                              5%
                             $50

                               $-                                                                             0%
                                    2004       2005           2006       2007            2008          2009
                                                                 Year Ended

                                              Total Loans (Millions)   Tier 1 Leverage Capital Ratio

Source: UBPRs for Park Avenue.

Park Avenue’s growth rate in 2008 was approximately 27 percent, much higher than the
15 percent annual growth rate projected in the 2007-2009 Strategic Plan. Board minutes
during the first half of 2008 included discussions about the bank’s capital-raising efforts
but did not discuss the risks associated with the bank’s growth or deviation from the
strategic plan. Further, Park Avenue’s Board continued to allow the bank’s management
to grow average total assets through September 2009, a year after the institution had
fallen below Adequately Capitalized for PCA purposes. Such growth represented an
apparent violation of the growth restrictions imposed by PCA on institutions that are less
than Adequately Capitalized.9 Contributing to Park Avenue’s average total asset growth
during this period were loan originations with particularly poor underwriting. In some
cases, these loans experienced problems soon after they were originated and contributed
to the financial problems experienced by the bank. Three examples follow.

                     •        The President and CEO, and the CLO approved a $1.5 million line of credit in
                              June 2009 despite a recommendation from the bank’s own financial analyst that
                              the line of credit not be approved. The analyst cited the borrower’s poor credit
                              history, a federal tax lien, and speculative collateral valuations as reasons not to
9
  See the discussion in the Prompt Corrective Action section of this report for more information pertaining
to Park Avenue’s apparent violation of the growth restrictions of PCA and the FDIC’s supervisory
response.
                                                     9
         approve the line of credit. In addition, the Senior Vice President of Commercial
         Lending did not approve the line of credit as required by the bank’s Credit Policy.
         Examiners determined that the $1.5 million extended under the line should be
         classified as doubtful during the September 2009 examination.

     •   The President and CEO, and the CLO approved a $1.5 million line of credit in
         March 2009 for a borrower that, according to an examiner’s analysis, was
         insolvent at the time the line of credit was approved. Among other things, the
         borrower had a negative net worth, an outstanding state tax lien, and inadequate
         cash flow to service the borrowing. In addition, the President and CEO, and the
         CLO exceeded their Board-delegated lending authority when approving the credit
         line. Further, the bank disbursed all of the funds under the line of credit before
         recording liens on properties used to secure the loan. Examiners determined that
         the entire amount of the credit line should be classified as substandard during the
         September 2009 examination.

     •   The President and CEO, and the CLO approved a $1.1 million line of credit in
         January 2009 for a borrower that, according to its 2008 audited financial
         statements, had a significant capital deficit. In addition, the bank’s collateral
         consisted of a second lien position on the borrower’s assets. Further, the Senior
         Vice President of Commercial Lending did not approve the line of credit as
         required by the bank’s Credit Policy. Examiners determined that approximately
         $100,000 of the line should be classified as doubtful and the remaining $1 million
         classified as loss during the September 2009 examination.

Park Avenue’s President and CEO advised examiners in September 2009 that growth
occurred earlier in the year because management believed that new capital would be
coming into the institution. According to Park Avenue’s Board and management, the
institution’s efforts to raise new capital were impaired by two principal factors. First, the
bank was unable to obtain approval from the NYSBD for a change in control application
submitted in connection with the President and CEO’s purported $6.5 million capital
infusion in October and November 200810 and an additional proposed capital infusion
totaling $15 million. Secondly, a protracted dispute between management and certain of
the bank’s shareholders made attracting outside investors difficult. Notwithstanding the
Board’s and management’s assertions, the financial condition of the bank was
deteriorating significantly in 2008 and 2009, limiting the bank’s ability to attract needed
capital. In addition, despite multiple requests, the NYSBD was unable to obtain
sufficient information pertaining to the source of these capital infusions to assure itself
that the funds complied with applicable laws and regulations. As previously stated, the
President and CEO pled guilty to misrepresenting the true source of the $6.5 million
capital contribution.

Park Avenue’s President and CEO resigned on October 30, 2009. According to the
Board’s Chairman, the President and CEO’s proposed capital infusion was the

10
  As previously stated, Park Avenue purported to raise a total of $6.6 million in new capital during the
fourth quarter of 2008. Of this amount, $6.5 million was purported to have been contributed by the
President and CEO.
                                                    10
cornerstone of the bank’s recapitalization efforts. Ultimately, Park Avenue was
unsuccessful in raising needed capital. The NYSBD closed the bank on March 12, 2010
because it could not raise sufficient capital to continue safe and sound operations.

Oversight of the Lending Function

A lack of effective Board and management oversight of the lending function contributed
to the financial problems that developed at Park Avenue. Examiners identified repeat
weaknesses in Park Avenue’s loan underwriting, credit administration, and related loan
monitoring practices between 2005 and the bank’s failure. Examiners also identified
recurring apparent violations of laws and regulations and contraventions of statements of
policy during their examinations of the institution. A brief description of these
weaknesses follows.

Loan Underwriting

Weak underwriting practices included, but were not limited to:

   •   Originating loans when the underlying financial information did not justify
       making the loan.

   •   Originating loans without the approvals required by the bank’s Credit Policy.

   •   Originating loans for which a conflict of interest existed. For example, examiners
       identified instances in which the President and CEO extended credit for entities in
       which he had a business interest.

   •   Instances in which overdrafts were approved solely by the President and CEO in
       contravention of the bank’s Credit Policy. In some cases, large overdrafts were
       approved for entities that had no borrowing relationship with the bank, effectively
       creating an unsecured line of credit without the benefit of sound underwriting.

   •   Inadequate controls for identifying related borrowers, resulting in apparent
       violations of the legal lending limits defined in the New York Banking Law.

   •   Not always obtaining appraisals when required. Examiners noted that Park
       Avenue’s appraisal reviews generally consisted of completing a checklist without
       regard to the size, risk, and complexity of the loan.

Credit Administration

Credit administration weaknesses generally consisted of loan files that lacked current,
relevant financial information on borrowers (e.g., financial statements, appraisals,
insurance coverage, or real estate tax searches).




                                            11
Monitoring

Weak loan monitoring practices included, but were not limited to:

   •   Not conducting a comprehensive stress test of the bank’s loan portfolio to assess
       the impact that various economic scenarios might have on asset quality, earnings,
       capital, and liquidity as prescribed in Appendix A, Interagency Guidelines for
       Real Estate Lending Policies, to Part 365, Real Estate Lending Standards, of the
       FDIC Rules and Regulations.

   •   An ineffective loan review function that contributed to management not
       recognizing and downgrading problem loans in a timely manner.

   •   A deficient Allowance for Loan and Lease Losses (ALLL) methodology and, as a
       result, an underfunded ALLL.

Apparent Violations and Contraventions

Apparent violations of statutes and regulations and contraventions of statements of policy
were noted in such areas as:

   •   Extending credit to insiders as defined in Part 215, Loans to Executive Officers,
       Directors, and Shareholders of Member Banks, of the Federal Reserve Board’s
       regulations (Regulation O).

   •   Extending credit above the bank’s legal lending limit as defined in the New York
       Banking Law.

   •   Implementing a Bank Secrecy Act (BSA) program pursuant to Part 326, Minimum
       Security Devices and Procedures and Bank Secrecy Act Compliance, of the FDIC
       Rules and Regulations.

   •   Reviewing real estate appraisals as defined in Part 323, Appraisals, of the FDIC
       Rules and Regulations.

   •   Reporting loans that exceed supervisory loan-to-value limits as defined in
       Appendix A to Part 365.

   •   Soliciting and accepting brokered deposits as defined in Part 337 of the FDIC
       Rules and Regulations.

   •   Restricting growth, requiring approval of certain expansion proposals, and
       maintaining minimum capital requirements as defined in Part 325, Capital
       Maintenance, of the FDIC Rules and Regulations.

   •   Engaging in covered transactions as defined in Section 23B of the Federal
       Reserve Act with affiliates in the absence of comparable transactions, on terms
                                            12
       and under circumstances, including credit standards, that in good faith would be
       offered to, or would apply to, nonaffiliated companies.


The FDIC’s Supervision of Park Avenue
The FDIC, in coordination with the NYSBD, provided ongoing supervisory oversight of
Park Avenue through regular on-site risk management examinations, visitations, and
offsite monitoring activities. Through its supervisory efforts, the FDIC identified key
risks in Park Avenue’s operations and brought these risks to the attention of the
institution’s Board and management. Such risks included lax Board and management
oversight, unsatisfactory earnings, weak risk management practices (including with
respect to the lending function), and repeat apparent violations of laws and regulations
and contraventions of statements of policy. Further, Park Avenue never received a
satisfactory composite or management component rating following the bank’s charter
conversion in 2004. Such ratings were forward-looking and properly reflected the bank’s
risky management practices. In addition, examiners identified a number of questionable
business transactions during the September 2009 examination that became the subject of
a criminal investigation.

In October 2005, Park Avenue adopted a Bank Board Resolution (BBR) that focused on
addressing BSA program deficiencies identified during the April 2005 examination.
Included within the BBR were provisions to strengthen the bank’s earnings performance
and strategic planning. However, management’s efforts to improve its earnings and
strategic planning were not successful. Examiners identified new, and in some cases,
repeat internal control and risk management weaknesses during the May 2006 and
June 2007 examinations. The FDIC seriously considered implementing Memorandums
of Understanding (MOU) with Park Avenue to address the weaknesses identified during
these examinations. However, due to various reasons described later, MOUs were not
implemented. Instead, examiners made recommendations in the reports of examination
and senior New York Regional Office (NYRO) officials and examiners made
recommendations during meetings and telephone discussions with bank management to
address the weaknesses.

In retrospect, obtaining a commitment from Park Avenue for more affirmative action to
address the weaknesses identified during the May 2006 and June 2007 examinations,
such as through an MOU, may have been beneficial. Such an approach could have
furthered the FDIC’s ongoing efforts to set an appropriate supervisory tenor of
expectations. However, given management’s lack of compliance with supervisory
enforcement actions implemented in subsequent years, it is uncertain whether the MOUs
would have influenced Park Avenue’s Board and management to take more effective and
timely actions to address examiner concerns.

Based on the weaknesses identified during the July 2008 examination, the FDIC and
NYSBD issued parallel C&Ds against Park Avenue that became effective in February
2009. In July 2009, the FDIC and NYSBD notified the bank’s Board that its actions to
comply with the C&Ds were deficient and reminded the Board of the potential
                                           13
consequences of material noncompliance with the orders, such as civil money penalties.
Park Avenue’s Board and management were ultimately unsuccessful in returning the
bank to a safe and sound condition and, as a result, the NYSBD closed Park Avenue on
March 12, 2010. At the time of our review, the FDIC was reviewing the causes of Park
Avenue’s failure, including the circumstances pertaining to the bank’s lack of compliance
with the C&Ds and apparent violation of PCA’s growth restrictions to determine whether
additional regulatory actions would be appropriate.

Supervisory History

The FDIC and NYSBD conducted a total of six risk management examinations and five
visitations of Park Avenue between April 2004 and the bank’s failure. Table 2
summarizes key supervisory information pertaining to these examinations and visitations,
including the supervisory actions taken by the FDIC.

Table 2: On-site Examinations and Visitations of Park Avenue

                                                     Supervisory     Contraventions         Informal or
 Examination        Type of                            Ratings           and/or           Formal Actions
  Start Date      Examination        Regulator           (UFIRS)       Violations             Taken**
                      Risk
    4/12/04        Management          FDIC              333413/3          None                   -

   09/13/04         Visitation     FDIC/NYSBD               -               ***                   -
                      Risk                                                                 BBR Effective
    4/25/05        Management      FDIC/NYSBD            223322/3           Yes               10/20/05
                                                                                          BBR Remained in
   10/24/05         Visitation     FDIC/NYSBD               -               ***                Effect
                                                                                          BBR Remained in
    01/3/06         Visitation     FDIC/NYSBD               -               ***                Effect
                      Risk                                                                BBR Remained in
     5/1/06        Management      FDIC/NYSBD            233332/3           Yes                Effect
                      Risk                                                                BBR Remained in
    6/25/07        Management      FDIC/NYSBD            233332/3           Yes                Effect
                      Risk                                                                 C&D Effective
    7/21/08        Management      FDIC/NYSBD            434342/4           Yes           February 11, 2009
                                                                                           C&D Remained
    4/20/09         Visitation     FDIC/NYSBD               -               ***               in Effect
                                                                                           C&D Remained
    5/19/09        Visitation      FDIC/NYSBD               -               ***               in Effect
                      Risk                                                                 C&D Remained
   9/28/09*        Management      FDIC/NYSBD            555543/5           Yes               in Effect
Source: OIG analysis of examination reports and information in the FDIC’s Virtual Supervisory Information
          on the Net system for Park Avenue.
* The bank failed before the FDIC issued the September 2009 examination report. As discussed in the
narrative below, the FDIC issued an interim ratings downgrade in September 2009 to 545542/5 based on an
off-site analysis of Park Avenue’s June 30, 2009 Call Report. The FDIC further downgraded the bank’s
ratings effective March 12, 2010 to 555543/5 based on the results of the September 2009 examination.
** Informal enforcement actions often take the form of BBRs or MOUs. Formal enforcement actions often
take the form of C&Ds, but under severe circumstances can also take the form of deposit insurance
termination proceedings.
*** The scope of the visitation did not include reviewing the bank’s compliance with laws and regulations,
which is customary, as visitations are inherently limited to certain areas.


                                                    14
The FDIC’s offsite monitoring procedures generally consisted of reviewing the bank’s
regulatory filings and contacting the institution’s management from time to time to
discuss current and emerging business issues and ongoing efforts to address regulatory
concerns. The purpose of the September 2004 visitation was principally to follow up on
the findings and recommendations of the April 2004 examination and to review the
bank’s management and operations following the change in control. The purpose of the
October 2005 visitation was to assess the bank’s progress in addressing the deficiencies
and apparent violations identified during the April 2005 examination. The purpose of the
January 2006 visitation was to assess the bank’s progress in addressing the findings of the
October 2005 visitation as well as to review management’s progress in addressing the
October 2005 BBR.

The purpose of the April 2009 visitation was to determine the sufficiency of
management’s responses to the parallel C&Ds issued in February 2009 and to evaluate
the financial information in the bank’s March 31, 2009 Call Report. The purpose of the
May 2009 visitation was to review the exposure for other-than-temporary-impairment in
the bank’s securities portfolio. Based on an off-site analysis of Park Avenue’s June 30,
2009 Call Report, the FDIC issued an interim ratings downgrade to 545542/5 effective
September 11, 2009. Although the bank failed before the FDIC issued the September
2009 examination report, the FDIC further downgraded the bank’s ratings to 555543/5
based on the results of the examination. The downgrade became effective March 12,
2010, the day that the bank was closed.

As previously discussed, Park Avenue adopted a BBR in October 2005 that included
provisions for strengthening the institution’s earnings performance and strategic
planning. However, the bank was not successful in improving its earnings performance
or achieving key goals defined in its strategic plans. The July 2008 examination
identified a significant deterioration in Park Avenue’s overall financial and operational
condition, and on February 11, 2009, the FDIC and NYSBD issued parallel C&Ds,
requiring, among other things, that the bank:

   •   Operate with adequate management supervision and Board oversight to prevent
       any future unsafe or unsound banking practice or violation of law or regulation.

   •   Engage an independent party to assess, among other things, the bank’s
       management and staffing needs and the performance of the Board Chairman,
       directors, and senior executive officers.

   •   Develop a capital plan that addressed, among other things, the bank’s plans for
       maintaining a Tier 1 Capital Ratio and Tier 1 Risk-based Capital Ratio of at least
       8 percent and 10 percent, respectively.

   •   Revise its strategic plan to better govern its operations.

   •   Develop a written budget and profit plan to improve its earnings.

   •   Revise its loan policies and procedures.
                                             15
   •   Develop a plan for reducing its adversely classified assets and CRE loan
       concentration.

As part of its obligations under the C&D, Park Avenue provided the FDIC and NYSBD
with quarterly progress reports addressing each of the provisions in the C&D. Based on
the results of the April 2009 visitation and a review of Park Avenue’s responses to the
C&D requirements, the FDIC and NYSBD formally notified the bank’s Board in July
2009 that management’s actions to comply with the C&Ds were deficient. The FDIC and
NYSBD also reminded the Board of the potential consequences of material
noncompliance with the orders, such as civil money penalties. Park Avenue’s Board and
management were not successful in returning the institution to a safe and sound
condition. Consequently, the NYSBD closed the institution in March 2010.

Supervisory Response to Key Risks During the 2006 and 2007 Examinations

Examiners identified a number of internal control weaknesses and risky management
practices during the May 2006 and June 2007 examinations. In some cases, the
weaknesses and risky practices had been identified and reported in prior examination
reports. Most notably, examiners determined the following areas to be less than
satisfactory in both examinations:

   •   Management. Key provisions of the October 2005 BBR were either not
       effectively addressed or were addressed after agreed-to timeframes. In addition,
       risk management programs, policies, and procedures were unsatisfactory
       (particularly with respect to the BSA program); the bank’s internal audit program
       needed to be improved; apparent violations of the FDIC Rules and Regulations
       with respect to BSA and appraisals existed; the bank embarked on an aggressive
       growth strategy without establishing the necessary infrastructure or risk
       management controls; and Call Reports contained erroneous information.
       Further, management did not ensure that deficiencies and recommendations
       reported during prior examinations were addressed.

   •   Asset Quality. Park Avenue exhibited weak loan underwriting and credit
       administration practices, such as originating loans with little or no borrower
       equity, extending credit without appropriate approvals, and using unapproved
       appraisers. In addition, examiners noted instances in which loan files were not
       properly maintained, appraisal reviews and property inspections were not
       adequate or performed, and real estate tax searches were not conducted. In
       addition, adversely classified loans and leases had increased from 5 percent of
       Tier 1 Capital and reserves at the May 2006 examination to 29 percent of Tier 1
       Capital and reserves at the June 2007 examination. Further, the ALLL
       methodology needed to be enhanced to comply with industry guidelines.

   •   Earnings. The bank did not achieve certain key financial benchmarks and goals
       in the Board-approved earnings plan, such as return on assets and non-interest
       expenses to average assets. In addition, net income was fully attributable to a
                                           16
       DTA, and high overhead expenses and a high cost of funds were limiting the
       bank’s ability to achieve profitability on a pre-tax basis. Further, the bank was
       employing aggressive accounting practices with respect to its non-accrual loans
       and deferred fee income.

   •   Liquidity. The risk management policy and practices were deficient in several
       respects. Among other things, the bank had a high net non-core funding
       dependence ratio due to its heavy dependence on brokered deposits, a heavy
       reliance on purchased funds, and a limited contingency funding capability.

Based on the results of the May 2006 and June 2007 examinations, examiners determined
that Park Avenue’s overall condition was less than satisfactory and assigned supervisory
composite ratings of “3” at each examination. Such ratings were forward-looking and
properly reflected the bank’s risky management practices. Examiners also made
recommendations to Park Avenue’s Board and management to address the weaknesses
identified during the examinations and requested that the bank provide a written response
to the issues contained in the examination reports.

The FDIC seriously considered implementing an MOU based on the results of the May
2006 examination. However, the FDIC decided not to pursue such an action based on
written assurances by Park Avenue’s Board and management that the concerns identified
in the examination report would be addressed. In addition, the FDIC was continuing to
receive status reports on the bank’s efforts to address the provisions of the October 2005
BBR. Examiners also considered implementing an MOU based on the results of the June
2007 examination. However, the June 2007 examination report was not transmitted to
the bank until March 6, 2008, approximately 8 months after the examination began.
According to NYRO staff, the report was delayed due to an extended review period.

NYRO officials advised us that they met with the President and CEO and the Chairman
of Park Avenue in May 2008 to discuss the June 2007 examination findings. During the
meeting, management presented information and described actions taken following the
conclusion of the on-site portion of the examination that indicated sufficient corrective
action had been taken or was underway. In its written response to the June 2007
examination report, Park Avenue’s management disputed a number of the examination
findings or indicated that corrective action had already taken place. Confirming the
status of the report’s findings would have required additional on-site work at the bank.
Because the next examination was scheduled to begin in July 2008, the FDIC decided not
to pursue an MOU at that time. Instead, the FDIC decided to revisit the findings
(including the potential need for an enforcement action) at the next examination.

In retrospect, obtaining a written commitment from Park Avenue for more affirmative
action to address the weaknesses identified during the May 2006 and/or June 2007
examinations, such as through an MOU, may have been beneficial. For example, an
MOU would have likely prompted a visitation following the May 2006 examination
and/or required the bank to submit status reports on its efforts to address key examiner
concerns (including those not covered by the October 2005 BBR). Such an approach
could have also furthered the FDIC’s ongoing efforts to set an appropriate supervisory
                                            17
tenor of expectations. However, given management’s lack of compliance with
supervisory enforcement actions implemented in subsequent years, it is uncertain whether
the MOUs would have influenced Park Avenue’s Board and management to take more
effective and timely actions to address examiner concerns.

Prompt Corrective Action

Section 38, Prompt Corrective Action, of the FDI Act establishes a framework of
mandatory and discretionary supervisory actions pertaining to all institutions. The
section requires regulators to take progressively more severe actions, known as “prompt
corrective actions,” as an institution’s capital level deteriorates. The purpose of section
38 is to resolve problems of insured depository institutions at the least possible long-term
cost to the DIF. Part 325, Capital Maintenance, of the FDIC Rules and Regulations
defines the capital measures used in determining the supervisory actions that will be
taken pursuant to section 38 for FDIC-supervised institutions. Part 325 also establishes
procedures for the submission and review of capital restoration plans and for the issuance
of directives and orders pursuant to section 38. The FDIC is required to closely monitor
institution compliance with capital restoration plans, mandatory restrictions defined under
section 38(e), and discretionary safeguards imposed by the FDIC (if any) to determine if
the purposes of PCA are being achieved.

The FDIC implemented supervisory actions with respect to Park Avenue that were
consistent with the PCA provisions of section 38. Among other things, the FDIC notified
Park Avenue of changes in its PCA capital category; requested and evaluated capital
restoration plans; monitored the institution’s financial condition and activities; and
expressed concern to the bank’s Board and management regarding issues of apparent
noncompliance. While the FDIC monitored and advised management of its concerns
regarding Park Avenue’s apparent violation of the growth restrictions defined in PCA, a
more aggressive approach may have been warranted. Doing so would have been
consistent with the FDIC’s guidance in this area and would have provided another avenue
for instilling urgency in the bank’s Board and management to implement corrective
measures. Table 3 illustrates Park Avenue’s capital levels relative to the PCA thresholds
for Well Capitalized institutions during the years preceding the bank’s failure.




                                            18
Table 3: Park Avenue’s Capital Levels
                       Tier 1            Tier 1 Risk-
     Year Ended        Leverage          Based            Total Risk-Based             PCA Capital
                       Capital           Capital          Capital                       Category
 Well Capitalized
                    5% or more           6% or more          10% or more
 Thresholds
 Park Avenue’s Capital Levels
      Dec-04            23.34                44.92                  46.18            Well Capitalized
      Dec-05            8.93                 12.81                  13.97            Well Capitalized
      Dec-06            7.78                 11.87                  13.02            Well Capitalized
      Dec-07            5.54                 7.73                   8.98             Adequately Capitalized
      Dec-08            3.86                 4.91                   6.16             Undercapitalized
                                                                                     Critically
       Dec-09
                            0.30              0.39                   0.77            Undercapitalized
Source: UBPRs for Park Avenue.
Note: Many of the capital ratios in the table reflect the results of amended Call Reports filed by Park Avenue
after an initial Call Report had been filed. The narrative below provides a chronological description of the
changes in the bank’s capital categories and the FDIC’s implementation of PCA.

Park Avenue was considered Well Capitalized until March 31, 2008. The institution fell
to Adequately Capitalized at that time as a result of asset growth and continued pre-tax
losses on operations. During the July 2008 examination, examiners determined that Park
Avenue had renewed over $30 million in brokered deposits during May 2008 without a
waiver from the FDIC. Examiners also noted that the bank had begun offering above-
market-rate promotional time deposits in June 2008 for the purpose of replacing its
maturing brokered deposits. However, examiners determined that the terms of these
promotional deposits failed to comply with Part 337 of the FDIC Rules and Regulations.
In a letter dated August 20, 2008, the FDIC notified Park Avenue’s Board that the bank
had fallen to Adequately Capitalized based on the March 31, 2008 Call Report.11 The
notification included a reminder regarding the restrictions imposed on Adequately
Capitalized institutions, including restrictions pertaining to the use of brokered deposits
without a waiver from the FDIC.

In a letter dated November 19, 2008, the FDIC notified Park Avenue’s Board that the
bank had fallen to Undercapitalized based on its September 30, 2008 Call Report. The
letter recommended that the Board carefully review all of the mandatory PCA restrictions
applicable to Undercapitalized institutions and submit a capital restoration plan (PCA
Plan) to the FDIC by December 19, 2008. At that time, the bank had just raised
$6.6 million in purported capital. However, deterioration in the quality of the bank’s
assets during the fourth quarter of 2008, together with an $8.7 million write-down of its
DTA, effectively offset the purported capital infusion and further depleted the bank’s
capital levels. As a result, Park Avenue reported an Undercapitalized position in its
December 31, 2008 Call Report.



11
  FDIC policy requires that institutions be notified in writing when they fall to Undercapitalized,
Significantly Undercapitalized, or Critically Undercapitalized. The policy does not require notification for
institutions that fall to Adequately Capitalized. The NYRO decided to notify Park Avenue of its
Adequately Capitalized capital category as a courtesy.
                                                      19
Park Avenue submitted a PCA Plan on December 19, 2008 and provided the FDIC with
periodic updates to the plan in the months that followed as financial conditions at the
institution deteriorated. On February 11, 2009, the FDIC and NYSBD issued parallel
C&Ds requiring, among other things, the submission of a Capital Plan within 30 days of
the effective date of the orders. In a letter dated February 12, 2009, the FDIC notified
Park Avenue’s Board that it had reviewed the bank’s PCA Plan and subsequent revisions,
but that a decision regarding the acceptability of the plan(s) had not been made. The
letter stated that the FDIC was extending its 60-day “review” period for the PCA Plan
until April 13, 2009 in order to allow for concurrent reviews of both the PCA Plan and
the Capital Plan required by the C&Ds.12 Park Avenue submitted a Capital Plan as
required by the C&Ds on March 13, 2009. At that time, DSC officials determined that
the PCA Plan and Capital Plan served substantially the same purpose and that reviewing
two separate plans was not practical. As a result, DSC decided to focus its review and
attention on the Capital Plan, as it was the more current of the two plans.

Notwithstanding the April 13, 2009 extended review date, the FDIC formally rejected the
bank’s Capital Plan in a June 4, 2009 letter to Park Avenue’s Board.13 The letter noted
that the plan lacked sufficient detail in several areas and that the capital infusion
described in the plan was dependent upon the NYSBD’s approval of a change in control
application which was uncertain at that time. The FDIC directed the Board to
immediately submit a new or revised Capital Plan. Park Avenue submitted a revised
Capital Plan on July 21, 2009. In a letter dated August 5, 2009, the FDIC notified the
bank’s Board that the revised plan was unacceptable. Among other things, the plan
lacked details regarding a planned $25 million capital infusion and included income
projections that were considered unrealistic. The FDIC directed Park Avenue’s Board to
immediately submit another Capital Plan. Park Avenue never submitted another Capital
Plan. However, the FDIC continued to have regular communication with the bank’s
management regarding its efforts to raise needed capital.

In a letter dated August 25, 2009, the FDIC re-affirmed Park Avenue’s Significantly
Undercapitalized status based on the bank’s June 30, 2009 Call Report.14 In a letter
dated January 22, 2010, the FDIC notified the bank that it had fallen to Critically
Undercapitalized based on a preliminary loss estimate of $20 million for 2009. Park

12
   Section 325.104(c) of the FDIC Rules and Regulations states that the FDIC shall provide written notice
to a bank as to whether its capital restoration plan required under PCA has been approved within 60 days of
receiving the plan. However, the FDIC may extend the time within which such notice shall be provided.
According to the FDIC’s Case Manager Procedures Manual, extensions beyond the 60-day timeframe
should be rare, and the reason(s) for extensions should be documented.
13
   We found no documentation pertaining to extensions of the FDIC’s review period beyond April 13,
2009. Consequently, the FDIC’s notification regarding the acceptability of Park Avenue’s capital
restoration plan did not conform to DSC guidance on extensions or with the intent of section 38 of the FDI
Act regarding the need for expeditious action on such plans. However, Park Avenue was operating under
existing C&Ds that required the bank to maintain a Tier 1 Capital Ratio and Tier 1 Risk-based Capital
Ratio of at least 8 percent and 10 percent, respectively. In addition, the FDIC had regular discussions with
Park Avenue’s management regarding the bank’s ongoing efforts to improve its capital position. As a
result, in our view, the delayed notification was inconsequential to the supervision or failure of the bank.
14
   The FDIC originally notified Park Avenue’s Board that the bank had fallen to a Significantly
Undercapitalized position in a letter dated May 18, 2009. The notification was based on the bank’s
March 31, 2009 Call Report.
                                                       20
Avenue continued to explore strategic alternatives for improving its capital position, such
as seeking new investors or selling one or more of its retail branches. However, these
efforts were not successful. As a result, the NYSBD closed Park Avenue on March 12,
2010.

Apparent Violation of PCA’s Growth Restrictions

As previously stated, Park Avenue fell to Undercapitalized of as September 30, 2008.
Section 38 prohibits Undercapitalized institutions from growing their average total assets
unless the institution satisfies certain conditions defined in the statute.15 Park Avenue did
not satisfy these statutory conditions, as the bank did not have an accepted capital
restoration plan. Notwithstanding the growth restrictions defined in PCA, the bank’s
average total assets grew for the next 4 consecutive quarters while the bank was either
Undercapitalized or Significantly Undercapitalized. Table 4 summarizes Park Avenue’s
average total assets and Tier 1 Leverage Capital Ratios between September 2008 and
September 2009.

Table 4: Asset Growth and Capital, September 2008 through September 2009
 Financial Measure                 Sept-08      Dec-08        Mar-09        Jun-09        Sept-09
 Average Assets ($000              477,621      496,765        525,754       538,932       551,513
 Tier 1 Leverage Capital Ratio       3.61        3.86           3.54          3.32          2.74
Source: UBPRs for Park Avenue.

In its November 19, 2008 PCA notification letter, the FDIC recommended that Park
Avenue’s Board carefully review the mandatory restrictions of Section 38, including the
restrictions pertaining to asset growth, and develop policies and procedures to ensure
compliance. After the bank filed its December 31, 2008 Call Report, the FDIC’s Case
Manager contacted the President and CEO to determine why the bank’s average total
assets had grown. According to the Case Manager, the President and CEO indicated that
the growth was primarily attributable to funding pre-existing loan commitments.

The FDIC sent another PCA notification letter in May 2009 after Park Avenue’s
March 31, 2009 Call Report reflected a drop in the bank’s PCA capital category to
Significantly Undercapitalized. The notification again recommended that the Board
review all mandatory PCA restrictions applicable to the bank. However, there is no
indication that the FDIC contacted the bank’s management to determine why the
institution’s average total assets had increased in apparent violation of PCA. At that
time, an examiner from another FDIC regional office was serving as the Case Manager
for Park Avenue while the permanent Case Manager was on another assignment. The
change in Case Manager was a factor in why Park Avenue was not contacted regarding
the asset growth reflected in the March 31, 2009 Call Report because the examiner
temporarily serving in that role was not particularly familiar with Park Avenue’s history.

15
  Section 38(e)(3) states that an Undercapitalized insured depository institution shall not permit its average
total assets during any calendar quarter to exceed its average total assets during the preceding calendar
quarter unless (1) the appropriate Federal banking agency has accepted the institution’s capital restoration
plan, (2) any increase in total assets is consistent with the plan, and (3) the institution’s ratio of tangible
equity to assets increases during the calendar quarter at a rate sufficient to enable the institution to become
Adequately Capitalized within a reasonable time.
                                                        21
After Park Avenue’s June 30, 2009 Call Report (which was required to be filed by
July 30, 2009) reflected a third consecutive quarter of asset growth, the FDIC formally
notified the bank’s Board in an August 25, 2009 letter that, despite a tenuous capital
category and declining capital ratios, the bank’s assets continued to grow in apparent
violation of PCA. On September 2, 2009, the Case Manager contacted the President and
CEO to reiterate the FDIC’s concerns regarding the bank’s asset growth and to ask what
action management was taking to stem the growth. The President and CEO stated that
the Board was aware of the growth restrictions imposed on the bank and that a special
Board meeting had been held the previous day to discuss the FDIC’s August 25, 2009
letter. However, the President and CEO was unable to provide a satisfactory explanation
as to why average total assets continued to grow. In the months that followed, the FDIC
actively monitored the bank’s asset growth and communicated regularly with the bank’s
Board and management regarding relevant concerns. At the time of our review, the FDIC
was continuing to review the circumstances pertaining to the bank’s apparent violation of
PCA to determine whether additional regulatory actions would be appropriate.

While the FDIC monitored and advised management of its concerns regarding Park
Avenue’s apparent violation of the growth restrictions defined in PCA, more aggressive
action may have been warranted. For example, the FDIC could have provided written
notification to the bank’s Board regarding the continued asset growth in apparent
violation of PCA and the potential consequences pertaining thereto after the filing of the
March 31, 2009 Call Report. The FDIC also could have required the bank to report more
frequently on its asset growth and/or restricted the bank from originating new loans
without prior approval from regulators. A more aggressive approach would have been
consistent with the FDIC’s guidance in this area and would have provided another avenue
for instilling urgency in the institution’s Board and management to implement corrective
measures.

Capital Purchase Program

On October 3, 2008, the President signed the Emergency Economic Stabilization Act of
2008 into law. Among other things, the Act authorized the Secretary of the Department
of the Treasury to establish TARP, which is administered by the Treasury. Under TARP,
the Treasury implemented the Capital Purchase Program (CPP) through which the
Treasury purchased senior preferred stock (and, if appropriate, warrants of common
stock) from viable institutions of all sizes. Qualifying financial institutions were
permitted to apply for funds under the CPP after consulting with their primary federal
regulator.16

On November 17, 2008, the FDIC received an application for $11.4 million in CPP funds
from Park Avenue. The FDIC subsequently requested clarification from Park Avenue
regarding certain information in its CPP application, including information pertaining to
the bank’s efforts to raise new capital. On February 24, 2009, the Case Manager
contacted the President and CEO of Park Avenue and discussed the CPP process and
requirements for obtaining favorable consideration of the bank’s application. At that


16
     See TARP in the glossary for more information on the CPP.
                                                     22
time, the bank was under a C&D and its financial condition was deteriorating. On
February 25, 2009, Park Avenue formally withdrew its application for CPP funds.
On October 8, 2010, the President and CEO pled guilty to criminal charges of defrauding
the TARP by misrepresenting the bank’s true capital position in connection with the CPP
application. Specifically, the President and CEO misled the FDIC and NYSBD by
representing that $6.5 million in capital raised during October and November 2008
consisted of the President and CEO’s personal funds. In fact, the President and CEO had
engaged in a “round-trip” loan transaction, in which the $6.5 million had been borrowed
from the bank itself. Accordingly, such funds should not have been accorded treatment
as regulatory capital. The capital position of banks applying for CPP funds was a critical
element in the TARP qualification process. In this case, Park Avenue withdrew its CPP
application before it could be approved or disapproved.


Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
December 22, 2010, the DSC Director provided a written response to the draft report.
That response is provided in its entirety as Appendix 4 of this report. In the response, the
DSC Director reiterated the causes of Park Avenue’s failure described in our report.
With regard to our assessment of the FDIC’s supervision of the bank, the Director
summarized the supervisory activities described in our report and noted that the actions
taken by the Board and management were generally not timely or adequate to correct the
risk management weaknesses that existed at the bank. The response added that DSC has
issued guidance to enhance its supervision of institutions with CRE concentrations.




                                             23
                                                                           Appendix 1

                   Objectives, Scope, and Methodology

Objectives

On July 21, 2010, the President signed into law the Financial Reform Act. The Financial
Reform Act amends section 38(k) of the FDI Act by increasing the MLR threshold from
$25 million to $200 million for losses that occur for the period January 1, 2010 through
December 31, 2011. Further, the Financial Reform Act calls for the OIG to perform
IDRs of failures when the associated losses are not material, but involve unusual
circumstances. Although the estimated loss for Park Avenue does not meet the amended
threshold requiring an MLR, the OIG determined that the circumstances pertaining to the
failure of Park Avenue warranted an in-depth review as authorized by the Financial
Reform Act.

Consistent with the Financial Reform Act and FDI Act, the objectives of this review were
to (1) determine the causes of Park Avenue’s failure and the causes of the resulting loss
to the DIF and (2) evaluate the FDIC’s supervision of Park Avenue, including the FDIC’s
implementation of the PCA provisions of section 38 of the FDI Act.

We conducted this performance audit from May 2010 to October 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Scope and Methodology

The scope of this audit included an analysis of Park Avenue’s operations from the time of
its charter conversion in 2004 until its failure on March 12, 2010. Our review also
entailed an evaluation of the regulatory supervision of the institution over the same
period.

To achieve the objectives, we performed the following audit procedures:

   •   Analyzed key documentation, including:

           o Examination reports issued by the FDIC and NYSBD between 2004 and
             2009.

           o Institution data in Call Reports, UBPRs, and other reports.

           o FDIC and NYSBD correspondence.

           o Relevant reports prepared by DSC and the Division of Resolutions and
             Receiverships relating to the institution’s failure.

                                           24
                                                                              Appendix 1

                    Objectives, Scope, and Methodology

           o Pertinent FDIC regulations, policies, procedures, and guidance.

   •   Interviewed DSC examination staff in the Washington, D.C. Office, NYRO, and
       New York Field Office.

   •   Interviewed NYSBD staff to obtain their perspectives on the failure and to discuss
       their role in the supervision of the institution.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports, and
interviews of examiners to understand Park Avenue’s management controls pertaining to
causes of failure and loss as discussed in the body of this report.

We obtained data from various FDIC systems, but determined that information system
controls were not significant to the audit objectives. Therefore, we did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including examination reports, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. We did not assess the strengths and weaknesses of DSC’s
annual performance plan in meeting the requirements of the Results Act because such an
assessment was not part of the audit objectives. DSC’s compliance with the Results Act
is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with the provisions of PCA and limited tests to
determine compliance with certain aspects of the FDI Act and FDIC Rules and
Regulations. The results of our tests are discussed, where appropriate, in the report.

Additionally, we assessed the risk of fraud and abuse related to our objectives in the
course of evaluating audit evidence. In this regard, we interviewed appropriate FDIC and
NYSBD staff regarding potential and actual fraudulent activities in connection with Park
Avenue.




                                             25
                                                                             Appendix 1

                   Objectives, Scope, and Methodology

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions and these reports can be
found at http://www.fdicig.gov. In June 2010, the OIG initiated an audit, the objectives
of which are to (1) determine the actions that the FDIC has taken to enhance its
supervision program since May 2009, including those specifically in response to the May
2009 memorandum, and (2) identify trends and issues that have emerged from
subsequent MLRs.

In addition, with respect to more comprehensive coverage of specific issues, in
May 2010, the OIG initiated an evaluation of the role and federal regulators’ use of the
Prompt Regulatory Action provisions of the FDI Act (section 38, PCA, and section 39,
Standards for Safety and Soundness) in the banking crisis.




                                            26
                                                                                        Appendix 2

                                  Glossary of Terms

        Term                                             Definition
Acquisition,           ADC loans are a component of CRE that provide funding for acquiring and
Development, and       developing land for future construction, and that provide interim financing for
Construction (ADC)     residential or commercial structures.
Loans

Adversely Classified   Assets subject to criticism and/or comment in an examination report.
Assets                 Adversely classified assets are allocated on the basis of risk (lowest to
                       highest) into three categories: Substandard, Doubtful, and Loss.

Affiliate              Under section 23A of the Federal Reserve Act (12 U.S.C. section 371c), an
                       affiliate generally includes, among other things, a bank subsidiary, or a
                       company that (1) controls the bank and any other company that is controlled
                       by the company that controls the bank, (2) is sponsored and advised on a
                       contractual basis by the bank, or (3) is controlled by or for the benefit of
                       shareholders who control the bank or in which a majority of directors hold
                       similar positions in the bank.

Allowance for Loan     The ALLL is an estimate of uncollectible amounts that is used to reduce the
and Lease Losses       book value of loans and leases to the amount that is expected to be collected.
(ALLL)                 It is established in recognition that some loans in the institution’s overall loan
                       and lease portfolio will not be repaid. Boards are responsible for ensuring
                       that their institutions have controls in place to consistently determine the
                       allowance in accordance with the institutions’ stated policies and procedures,
                       generally accepted accounting principles, and supervisory guidance.
Bank Board             A BBR is an informal commitment adopted by a financial institution’s Board
Resolution (BBR)       (often at the request of the FDIC) directing the institution’s personnel to take
                       corrective action regarding specific noted deficiencies. A BBR may also be
                       used as a tool to strengthen and monitor the institution’s progress with regard
                       to a particular component rating or activity.
Bank Secrecy Act       Congress enacted the BSA of 1970 to prevent banks and other financial
(BSA)                  service providers from being used as intermediaries for, or to hide the transfer
                       or deposit of money derived from, criminal activity. BSA requires financial
                       institutions to maintain appropriate records and to file certain reports,
                       including cash transactions over $10,000 via the Currency Transactions
                       Reports. These reports are used in criminal, tax, or regulatory investigations
                       or proceedings.
Call Report            Reports of Condition and Income, often referred to as Call Reports, include
                       basic financial data for insured commercial banks in the form of a balance
                       sheet, an income statement, and supporting schedules. According to the
                       Federal Financial Institutions Examination Council’s (FFIEC) instructions for
                       preparing Call Reports, national banks, state member banks, and insured
                       nonmember banks are required to submit a Call Report to the FFIEC’s
                       Central Data Repository (an Internet-based system used for data collection)
                       as of the close of business on the last day of each calendar quarter.
Cease and Desist       A C&D is a formal enforcement action issued by a financial institution
Order (C&D)            regulator pursuant to 12 U.S.C. section 1818 to a bank or affiliated party to
                       stop an unsafe or unsound practice or a violation of laws and regulations. A
                       C&D may be terminated when the bank’s condition has significantly

                                                 27
                                                                                      Appendix 2

                                 Glossary of Terms
                      improved and the action is no longer needed or the bank has materially
                      complied with its terms.
Commercial Real       CRE loans are land development and construction loans (including 1-to-4
Estate (CRE) Loans    family residential and commercial construction loans) and other land loans.
                      CRE loans also include loans secured by multifamily property and nonfarm
                      nonresidential property, where the primary source of repayment is derived
                      from rental income associated with the property or the proceeds of the sale,
                      refinancing, or permanent financing of the property.

Concentration         A concentration is a significantly large volume of economically related assets
                      that an institution has advanced or committed to a certain industry, person,
                      entity, or affiliated group. These assets may, in the aggregate, present a
                      substantial risk to the safety and soundness of the institution.

Deferred Tax Asset    DTAs are assets that reflect, for reporting purposes, amounts that will be
(DTA)                 realized as reductions of future taxes or as future receivables from a taxing
                      authority. DTAs may arise because of specific limitations requiring that
                      certain net operating losses or tax credits be carried forward if they cannot be
                      used to recover taxes previously paid. These “tax carryforwards” are realized
                      only if the institution generates sufficient future taxable income during the
                      carryforward period.

                      The FDIC Capital Maintenance Regulation (Part 325) established limits on
                      the amount of certain DTAs that may be included in Tier 1 Capital for risk-
                      basked and leverage capital purposes for state, nonmember banks. Under
                      Part 325, for regulatory purposes, DTAs that are dependent upon future
                      taxable income are limited to the lesser of: (1) the amount of such DTAs that
                      the institution expects to realize within 1 year of the quarter-end report date,
                      based on its projection of future taxable income for that year, or (2) 10
                      percent of Tier 1 Capital before certain deductions are included.

FDIC’s Supervision    The FDIC’s supervision program promotes the safety and soundness of
Program               FDIC-supervised institutions, protects consumers’ rights, and promotes
                      community investment initiatives by FDIC-supervised institutions. The
                      FDIC’s DSC (1) performs examinations of FDIC-supervised institutions to
                      assess their overall financial condition, management policies and practices
                      (including internal control systems), and compliance with applicable laws and
                      regulations and (2) issues related guidance to institutions and examiners.

Federal National      Fannie Mae is a shareholder-owned corporation with a government charter.
Mortgage              The organization plays a critical role in the U.S. home mortgage market by
Association (Fannie   purchasing home mortgages from original lenders, repackaging them as
Mae)                  mortgage-backed securities, and either selling or holding them in its
                      investment portfolio.

Loan-to-Value         A ratio for a single loan and property calculated by dividing the total loan
                      amount at origination by the market value of the property securing the credit
                      plus any readily marketable collateral or other acceptable collateral.

Material Loss         As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                      Dodd-Frank Wall Street Reform and Consumer Protection Act, for the period
                      beginning January 1, 2010 and ending December 31, 2011, a material loss is

                                               28
                                                                                        Appendix 2

                                   Glossary of Terms
                        defined as any estimated loss in excess of $200 million.

Memorandum of           A Memorandum of Understanding is an informal agreement between an
Understanding           institution and the FDIC, which is signed by both parties. The state authority
(MOU)                   may also be a party to the agreement. MOUs are designed to address and
                        correct identified weaknesses in an institution’s condition.

Nonaccrual Status       The status of an asset, often a loan, which is not earning the contractual rate
                        of interest in the loan agreement, due to financial difficulties of the borrower.
                        Typically, interest accruals have been suspended because full collection of
                        principal is in doubt, or interest payments have not been made for a sustained
                        period of time. Loans with principal and interest unpaid for at least 90 days
                        are generally considered to be in a nonaccrual status.

Peer Group              Institutions are assigned to 1 of 15 peer groups based on asset size, number of
                        branches, and whether the institution is located in a metropolitan or non-
                        metropolitan area.

Preferred Shares        Preferred shares (or stock) are special equity securities having characteristics
                        of both equity and debt instruments. Preferred shares are senior in priority to
                        common shares, but subordinate to bonds. Preferred shares typically do not
                        have voting rights, but the shares often have priority over common shares in
                        the payment of dividends and upon liquidation. Preferred shares may carry a
                        dividend that is paid prior to any dividends to common stockholders.

Prompt Corrective       The purpose of PCA is to resolve problems of insured depository institutions
Action (PCA)            at the least possible long-term cost to the DIF. Part 325, subpart B, of the
                        FDIC Rules and Regulations, 12 Code of Federal Regulations, section
                        325.101, et. seq., implements section 38, Prompt Corrective Action, of the
                        FDI Act, 12 United States Code section 1831(o), by establishing a framework
                        for determining capital adequacy and taking supervisory actions against
                        depository institutions that are in an unsafe or unsound condition. The
                        following terms are used to describe capital adequacy: (1) Well Capitalized,
                        (2) Adequately Capitalized, (3) Undercapitalized, (4) Significantly
                        Undercapitalized, and (5) Critically Undercapitalized.

                        A PCA Directive is a formal enforcement action seeking corrective action or
                        compliance with the PCA statute with respect to an institution that falls
                        within any of the three categories of Undercapitalized institutions.

Substandard             One of three types of classifications used by examiners to describe adversely
                        classified assets. The term is generally used to describe an asset that is
                        inadequately protected by the current sound worth and paying capacity of the
                        obligor or of the collateral pledged, if any. Substandard assets have a well-
                        defined weakness or weaknesses that jeopardize the liquidation of the debt.
                        Substandard assets are characterized by the distinct possibility that the
                        institution will sustain some loss if the deficiencies are not corrected.

Tier 1 (Core) Capital   Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R. section
                        325.2(v), as
                        The sum of:
                         • Common stockholder’s equity (common stock and related surplus,
                             undivided profits, disclosed capital reserves, foreign currency translation

                                                 29
                                                                                    Appendix 2

                                 Glossary of Terms
                         adjustments, less net unrealized losses on available-for-sale securities
                         with readily determinable market values);
                      • Non-cumulative perpetual preferred stock; and
                      • Minority interest in consolidated subsidiaries;
                      Minus:
                      • Certain intangible assets;
                      • Identified losses;
                      • Investments in securities subsidiaries subject to section 337.4; and
                      • Deferred tax assets in excess of the limit set forth in section 325.5(g).
Troubled Asset        TARP is a program of the United States Department of the Treasury to
Relief Program        purchase assets and equity from financial institutions to strengthen the
(TARP)                financial sector. TARP was established under the Emergency Economic
                      Stabilization Act of 2008, which established the Office of Financial Stability
                      within the Department of the Treasury. Under TARP, Treasury will purchase
                      up to $250 billion of preferred shares from qualifying institutions as part of
                      the Capital Purchase Program. Qualifying financial institutions refer to
                      private and public U.S.-controlled banks, savings associations, bank holding
                      companies, and certain savings and loan holding companies (engaged
                      exclusively in financial activities) that are deemed healthy and viable. The
                      CPP application period for publicly-held and privately-held financial
                      institutions closed on November 14, 2008 and December 8, 2008,
                      respectively.
Uniform Bank          The UBPR is an individual analysis of financial institution financial data and
Performance Report    ratios that includes extensive comparisons to peer group performance. The
(UBPR)                report is produced by the Federal Financial Institutions Examination Council
                      for the use of banking supervisors, bankers, and the general public and is
                      produced quarterly from Call Report data submitted by banks.

Uniform Financial     Financial institution regulators and examiners use the UFIRS to evaluate a
Institutions Rating   bank’s performance in six components represented by the CAMELS
System (UFIRS)        acronym: Capital adequacy, Asset quality, Management practices, Earnings
                      performance, Liquidity position, and Sensitivity to market risk. Each
                      component, and an overall composite, is assigned a rating of 1 through 5,
                      with 1 having the least regulatory concern and 5 having the greatest concern.




                                               30
                                                                             Appendix 3

                                         Acronyms


ADC        Acquisition, Development, and Construction

ALLL       Allowance for Loan and Lease Losses

BBR        Bank Board Resolution

BSA        Bank Secrecy Act

C&D        Cease and Desist Order

C&I Co        mmercial and Industrial

CAMELS Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to Market
       Risk

CEO        Chief Executive Officer

CFO        Chief Financial Officer

CLO        Chief Lending Officer

CRE Co        mmercial Real Estate

DIF        Deposit Insurance Fund

DSC        Division of Supervision and Consumer Protection

DTA        Deferred Tax Asset

FDI        Federal Deposit Insurance

MOU        Memorandum of Understanding

NYSBD      New York State Banking Department

OCC        Office of the Comptroller of the Currency

OIG        Office of Inspector General

PCA        Prompt Corrective Action

TARP       Troubled Asset Relief Program

UBPR       Uniform Bank Performance Report

UFIRS      Uniform Financial Institutions Rating System




                                             31
                                                                                         Appendix 4

                                    Corporation Comments




Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990                 Division of Supervision and Consumer Protection

                                                                          December 22, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson
                 Director

SUBJECT:         FDIC Response to the Draft Audit Report Entitled, In-Depth Review of The Park
                 Avenue Bank, New York, New York (Assignment No. 2010-049)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act as amended by the Dodd-Frank Wall
Street Reform and Consumer Protection Act, the Federal Deposit Insurance Corporation’s Office of
Inspector General (OIG) conducted an In-Depth Review of The Park Avenue Bank (Park Avenue),
which failed on March 12, 2010. This memorandum is the response of the Division of Supervision
and Consumer Protection (DSC) to the OIG’s Draft Report (Report) received on October 28, 2010.

Park Avenue failed primarily due to lax oversight by the Board and management and a lack of
sound corporate governance. In April 2004, Park Avenue converted to a state non-member charter
and embarked on an aggressive growth strategy centered in poorly underwritten and administered
commercial real estate (CRE) loans. Furthermore, the Board and management failed to promptly or
effectively respond to negative trends in Park Avenue’s financial and operational condition. Due to
high overhead expenses associated with converting charters, Park Avenue never achieved pre-tax
profitability. The combination of these factors with the continued aggressive growth strategy in a
deteriorating economy led to a rapid deterioration in asset quality, negative earnings, and ultimately
insufficient liquidity and capital.

From the 2004 charter conversion through 2009, the FDIC and the New York State Banking
Department jointly and separately conducted six full-scope examinations and five visitations. The
2005, 2006, and 2007 examinations identified key risk management weaknesses, and
recommendations for improvement were made to the Board and management. The 2008
examination found Park Avenue in troubled condition, and a formal enforcement action was issued.
Ultimately, the actions taken by the Board and management were generally not timely or adequate
to correct the risk management weaknesses.

In recognition of the threat that institutions with high risk profiles, such as Park Avenue, pose to the
Deposit Insurance Fund, DSC has issued guidance to enhance our supervision of institutions with
concentrated CRE lending. A Financial Institution Letter, Managing Commercial Real Estate
Concentrations in a Challenging Environment, was issued that re-emphasizes the importance of
robust credit risk-management practices with concentrated CRE exposures.

Thank you for the opportunity to review and comment on the Report.




                                                    32
